<html>
<title> - OVERSIGHT OF THE TRUMP ADMINISTRATION'S IRAN POLICY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
          OVERSIGHT OF THE TRUMP ADMINISTRATION'S IRAN POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
       THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL TERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 19, 2019

                               __________

                           Serial No. 116-48

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        

        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov
                       
                       
                       
                       
                       
                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 36-742PDF            WASHINGTON : 2019                      
                       
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey             CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia        STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida         JOE WILSON, South Carolina
KAREN BASS, California              SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts      TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island       ADAM KINZINGER, Illinois
AMI BERA, California                LEE ZELDIN, New York
JOAQUIN CASTRO, Texas               JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                  ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York         BRIAN MAST, Florida
TED LIEU, California                FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania            BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota            JOHN CURTIS, Utah
ILHAN OMAR, Minnesota               KEN BUCK, Colorado
COLIN ALLRED, Texas                 RON WRIGHT, Texas
ANDY LEVIN, Michigan                GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia        TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania      GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey          STEVE WATKINS, Kansas
DAVID TRONE, Maryland               MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                       

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                 THEODORE E. DEUTCH, Florida, Chairman

GERALD E. CONNOLLY, Virginia         JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California                 STEVE CHABOT, Ohio
COLIN ALLRED, Texas                  ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey           LEE ZELDIN, New York
DAVID TRONE, Maryland                BRIAN MAST, Florida
BRAD SHERMAN, California             BRIAN FITZPATRICK, Pennsylvania
WILLIAM KEATING, Massachusetts       GUY RESCHENTHALER, Pennsylvania
JUAN VARGAS, California              STEVE WATKINS, Kansas

                                     
     

                      Casey Kustin, Staff Director
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Hook, Mr. Brian, U.S. Special Representative for Iran and Senior 
  Policy Advisor to the Secretary of State.......................     7

                                APPENDIX

Hearing Notice...................................................    35
Hearing Minutes..................................................    36
Hearing Attendance...............................................    37

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Information for the record submitted from Representative Lieu....    38

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Deutch..........................................    46
Responses to questions submitted for the record from 
  Representative Allred..........................................    52
Response to question submitted for the record from Representative 
  Sherman........................................................    55


                OVERSIGHT OF THE TRUMP ADMINISTRATION'S



                              IRAN POLICY

                        Wednesday, June 19, 2019

                        House of Representatives

                    Subcommittee on the Middle East,

                    North Africa, and International

                               Terrorism

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 12:04 p.m., in 
room 2172 Rayburn House Office Building, Hon. Theodore E. 
Deutch (chairman of the subcommittee) presiding.
    Mr. Deutch. This hearing will come to order. Welcome, 
everyone. The subcommittee is meeting today to hear testimony 
on the Trump Administration's Iran policy. I thank the witness 
for appearing today. I now recognize myself for the purpose of 
making an opening statement. I will then turn it over to the 
ranking member, Mr. Wilson, for his opening statement.
    And, without objection, all members may have 5 days to 
submit statements, questions, and extraneous materials for the 
record, subject to the length limitations in the rules.
    Mr. Hook, thank you very much for testifying today. This 
committee has many questions related to the U.S. policy toward 
Iran, and we welcome the opportunity to hear directly from the 
Administration.
    In recent weeks, relations between the United States and 
Iran have grown increasingly tense. This committee is fully 
aware of the many challenges posed by Tehran. Iran plays a 
destabilizing role in the region by propping up Bashar al-Assad 
in Syria, supporting Houthi rebels in Yemen, threatening our 
ally, Israel, and supporting terrorist groups like Hezbollah 
and Hamas.
    Iran also continues to unjustly imprison American citizens 
including Siamak Namazi and his father Baquer, who is, I would 
point out, 83 years old and in poor medical condition; Xiyue 
Wang whose health is deteriorating rapidly; and Bob Levinson, 
my constituent, who went missing in Iran in March 2007, and is 
now the longest-held American hostage. To this day, Iranian 
leaders refuse to acknowledge their responsibility for Bob's 
disappearance and have not fulfilled promises of assistance in 
locating and returning Bob to his family.
    Congress stands in solidarity with those Americans and 
others detained in Iran. The Iranian Government's behavior is 
appalling and my colleagues and I unequivocally condemn its 
dangerous actions. This committee also has serious concerns, 
however, about the Administration's Iran policy, its execution, 
and its unintended consequences. I have four primary worries 
about the Administration's policy and I question its coherence, 
its impact on our international leadership, its effectiveness, 
and, at times, its recklessness.
    First, the objectives of the Administration's policy are 
incoherent. Today, Mr. Hook, I understand you will say the 
Administration seeks new negotiations with Tehran based on four 
pillars: Iran's nuclear program, its expansive ballistic 
missile capabilities, its support of regional proxies, and its 
arbitrary detention of U.S. citizens. These objectives are 
laudatory and worth pursuing.
    But on multiple occasions, senior administration officials 
have expressed aims that are incompatible and sometimes work at 
cross-purposes with these goals. National Security Advisor John 
Bolton is a longtime proponent of regime change in Tehran. He 
continually questions the utility of negotiating with Iran and 
frequently indicates that the Iranian regime will not be in 
power in the coming years.
    President Trump, regularly, including on a recent visit to 
Japan, said he is opposed to regime change. He has offered to 
negotiate with Iran without preconditions and claims that he 
seeks a deal solely to end Iran's nuclear program. But in a May 
2018 speech, the Secretary of State, Mike Pompeo, outlined 12 
conditions that Tehran must fulfill, many of which are 
unrelated to the nuclear issue. So, therefore, there is serious 
confusion about the intentions of Iran policy and whether Mr. 
Bolton, President Trump, and Secretary Pompeo are working at 
cross-purposes or even to achieve the same objectives.
    Second, the Trump Administration's impulsive actions are 
isolating the United States from our allies, which makes it 
harder to counter Iran's nuclear and non-nuclear behavior. 
President Trump's withdrawal from the nuclear deal known as the 
JCPOA undermined U.S. credibility, undercut American 
leadership, and divided us from our allies. Now I am no great 
defender of the JCPOA, but the agreement formalized 
international dialog to address any Iranian violations or flaws 
in the accord, and by withdrawing the Trump Administration 
forfeited these mechanisms and frustrated global efforts to 
contain the Iranian nuclear threat. Furthermore, Iran recently 
announced that it would increase its stockpile of enriched 
uranium. Rather than confronting Iranian violations or 
addressing gaps and sunset concerns in the deal in concert with 
our allies and partners during negotiations, we instead face 
the challenge now with a fractured international community. 
Those divisions also make it harder to rally our allies to 
address Iran's non-nuclear activities like its ballistic 
missile program and destabilizing regional activities.
    The fact became apparent in recent days. It is highly 
likely that Iran twice attacked civilian ships in the Gulf over 
the last month, but Congress would like to see that evidence 
before stating it as a fact, but these attacks are unacceptable 
and should unite the international community.
    However, as the Administration sought to build a broad 
coalition to respond, close allies like Germany and Japan 
responded with skepticism while adversaries like Russia and 
China signaled their support for Iran and stated that they 
would continue to develop ties with the Islamic Republic. 
Rather than lead a unified international response to an attack 
on global commerce, the Trump Administration is having trouble 
convincing even our closest allies to push back on Iran.
    Third, despite the Administration's claims, maximum 
pressure policy is ineffective by the Administration's own 
standards: deterring Tehran and countering further Iranian 
nuclear development. Those are the standards and we have not 
seen success. The approach appears based on this assumption: 
that faced with massive sanctions Tehran would capitulate, 
change its policies, and accede U.S. demands; in fact, the 
opposite has occurred as Iran escalated its regional and 
nuclear activities and rejected new negotiations.
    Sanctions have not compelled Iran to change its regional 
policies, which is not only my opinion but the assessment of 
the head of Israeli military intelligence who made that claim 
several weeks back.
    Fourth, it appears there is no process in place to reassess 
the assumptions underlying the Administration's policy, 
consider alternatives, and change course. If the current trend 
continues, the Trump Administration is likely to find a binary 
choice, back down in the face of Iran's aggressive behavior, or 
engage in military action.
    And rather than force Iran back to the negotiating table, 
the Administration's policy is increasing the chances of 
miscalculation, which then would bring the United States and 
Iran closer to a military conflict. And even more troubling, 
the Administration seems to be suggesting that military action 
is covered by the 2001 AUMF, which I remind the Administration 
there is broad bipartisan agreement that that is not the case.
    To reiterate, Congress has not authorized war with Iran. 
Mr. Hook, I hope you will clarify the Administration's view on 
this issue. And, finally, I would just close by pointing out 
that the challenges posed by Iran are too grave, the risk to 
our international alliances too important, and the lives of our 
service members too sacred for Congress to abdicate its 
oversight responsibility and endorse a policy that we do not 
understand, that confuses our allies, and most importantly that 
risks U.S. national security.
    And with that I will turn it over to the ranking member, 
Mr. Wilson.
    Mr. Wilson. Thank you, Chairman Deutch, for calling this 
timely hearing. I am grateful that we will be joined later 
today by the Republican leader, Mike McCaul. His presence 
underscores how important the hearing is today. And thank you 
to our distinguished witness, Mr. Brian Hook, the U.S. Special 
Representative for Iran, for your testimony before this 
subcommittee today.
    Iran has been a persistent threat to the United States 
since the Islamic Revolution of 1979. The Iranian regime is 
inherently hostile to the United States, and when the mullahs 
and Tehran chant ``Death to America,'' ``Death to Israel,'' 
they mean what they say and they publish it on billboards in 
English across the country, the same chant of ``Death to 
America,'' ``Death to Israel.'' The Iranian regime's 
hostilities to the United States, our interests, and allies 
around the world has continued unabated since 1979.
    Its most recent iteration came in the form of Iran's attack 
on oil tankers in the Gulf of Oman this past weekend. This 
latest attack like all other Iranian attacks was not the result 
of any one policy or another. United States policy did not 
cause Iran to become the world's No. 1 State sponsor of 
terrorism, Iran has been engaged in this kind of behavior since 
the current regime in Tehran came to power.
    This kind of behavior is not an aberration or escalation, 
it is a hallmark of the Iranian regime statecraft. The notion 
that the Iranian regime somehow would moderate to a point in 
which it would no longer support such malign activity has 
proven false. When Iran finally felt the economic benefits of 
sanctions relief under the terms of the flawed nuclear 
agreement, did it cut back its support to the malign activity 
around the world? No. Instead, Iran doubled down on support of 
terrorist groups and continued racing ahead in developing the 
ballistic missile program.
    It exploited the breathing room paid for by the 
international community to prop up the Assad regime in Syria 
and increase its influence in places like Yemen and Iraq. That 
is part of the reason that the Trump Administration withdrew 
from the nuclear agreement and reimposed sanctions on the 
Iranian regime. Initially, the Iranians believed that they 
could wait out the Administration's maximum pressure campaign 
by appealing to the Europeans to try to find a way around U.S. 
sanctions, but they have not succeeded.
    Iran's economy is spiraling, contracting at a rate of 6 
percent so far this year after contracting nearly 4 percent in 
2018. Feeling the squeeze, the Iranian regime has decided to 
revert to its tried and tested terrorist behavior with the 
latest attack in the Gulf and its announcement this week of its 
intention to breach the nuclear deal.
    These are both tactics of desperation designed to give wind 
to arguments that U.S. policy precipitated the Iranian bad 
behavior. The sanctions against Iran are working. We have 
already seen some dividends of the Administration's maximum 
pressure campaign. Reports indicate that Iran has had to slash 
payments to the fighters in Syria by a third due to the pain of 
American sanctions. Even employees of Hezbollah have missed 
paychecks and lost perks.
    Iran's cyber units also lost substantial funding, and the 
IRGC's Quds Force budget has been reportedly cut by 17 percent. 
At the same time, the United States must prioritize bringing 
our friends and partners into the fight with us. We cannot and 
should not do this alone. After all, it was the international 
sanctions regime against Iran that finally brought the regime 
to the negotiating table, and we must bridge the divide with 
our European allies to be fully effective. We must restore 
deterrence against Iran and that requires the cooperation of 
our friends and allies in the region and beyond.
    Mr. Hook, thank you again for your being here today. We 
look forward to your service and understand that you have 
really got a job ahead of you. But your background indicates 
that you can achieve.
    Mr. Chairman, I yield back.
    Mr. Deutch. I thank the ranking member. I will now 
introduce our witness, Mr. Brian Hook. Mr. Hook currently 
serves as U.S. Special Representative for Iran and Senior 
Policy Advisor to the Secretary of State. Prior to this 
appointment, he served as Director of the Policy Planning Staff 
from 2017 to 2018.
    He previously held numerous senior roles in the Bush 
Administration including Assistant Secretary of State for 
International Organizations and Senior Advisor to the U.S. 
Ambassador to the U.N. Mr. Hook managed an international 
strategic consulting firm from 2009 to 2017, and practiced law 
at Hogan & Hartson from 1999 to 2003.
    We thank you for being here today, Mr. Hook. I would ask 
you to please summarize your testimony in 5 minutes and, 
without objection, your prepared written statement will be made 
part of the hearing record.
    Mr. Hook.

 STATEMENT OF BRIAN HOOK, U.S. SPECIAL REPRESENTATIVE FOR IRAN 
      AND SENIOR POLICY ADVISOR TO THE SECRETARY OF STATE

    Mr. Hook. Thank you, Mr. Chairman, Ranking Member Wilson, 
and distinguished members of the subcommittee. I appreciate you 
inviting me today to testify before the committee and for 
devoting a hearing to discuss America's foreign policy to Iran.
    In my role as the United States Special Representative for 
Iran, I have made it a priority to stay coordinated with this 
committee. This administration has implemented an unprecedented 
pressure campaign with two primary objectives: First, to 
deprive the Iranian regime of the money it needs to support its 
destabilizing activities. Second, to bring Iran back to the 
negotiating table to conclude a comprehensive and enduring deal 
as outlined by Secretary Pompeo in May 2018 shortly after the 
President left the Iran deal.
    President Trump and Secretary Pompeo have expressed very 
clearly our willingness to negotiate with Iran when the time is 
right. No one should be uncertain about our desire for peace or 
our readiness to normalize relations should we reach a 
comprehensive deal. We have put the possibility of a much 
brighter future on the table for the Iranian people, and we 
mean it.
    The comprehensive deal we seek with the Iranian regime 
should address four key areas: its nuclear program, its 
ballistic missile development and proliferation, its lethal 
support and financial support to terrorist groups and proxies, 
and its arbitrary detention of U.S. citizens, including as 
Chairman Deutch pointed out, Bob Levinson, who is your 
constituent, as well as Siamak Namazi and Xiyue Wang and 
others.
    Over a year ago, Secretary Pompeo laid out 12 demands 
describing the negotiated outcomes that we seek. We did not 
invent this list. In fact, the requirements that the Secretary 
laid out simply reflect the wide extent of Iran's malign 
behavior as well as the global consensus that is reflected in 
multiple U.N. Security Council resolutions that were passed 
from 2006 up until around 2011.
    Before we reimposed our sanctions and accelerated our 
pressure, Iran was increasing the scope of its malign activity. 
It was emboldened by the resources and legitimacy that the 
nuclear deal granted. This includes engaging in expansive 
missile testing and proliferation. Activities that I can 
confirm did not diminish after implementation of the nuclear 
deal in 2016.
    And Iran also continued after the deal to detain innocent 
American citizens. Iran also deepened its engagement in 
regional conflicts, intensifying, prolonging, and deepening the 
conflicts. In Yemen, for example, Iran helped to fuel a 
humanitarian catastrophe by providing funding, weapons, and 
training to the Houthis. Its support has only prolonged the 
suffering of the Yemeni people.
    Looking at Syria, Iran supported Assad's war machine as the 
Syrian regime killed hundreds of thousands and displaced 
millions, creating the worst refugee crisis since World War II. 
Under the cover of the Syrian civil war, Iran is now trying to 
plant deep military roots in Syria and to establish Syria as a 
forward-deployed missile base to threaten Syria's neighbors, 
especially Israel.
    In Lebanon, Iran uses Hezbollah for many decades to promote 
conflict with Lebanon's neighbors, threaten the safety of the 
Lebanese people, and imperil prospects for stability. Our 
pressure is aimed at reversing these trends. Today, by nearly 
every metric, the regime and its proxies are weaker than when 
our pressure began. Shia militant groups in Syria have stated 
that Iran no longer has enough money to pay them as much as 
they have in the past.
    Hezbollah and Hamas have enacted unprecedented austerity 
plans due to a lack of funding from Iran. In March, Hezbollah's 
leader, Hassan Nasrallah, went on TV and made a public appeal 
for donations. Hezbollah has placed piggy banks in grocery 
stores and in retail outlets seeking the spare change of 
people.
    We are also making it harder for Iran to expand its own 
military capabilities. Beginning in 2014 when the deal was near 
completion, Iran's military budget increased every year through 
2017. When we put our pressure into effect starting in 2017 and 
2018, in the first year we saw a reduction in Iran's military 
spending by 10 percent. And in March, their most recent budget 
has a 28 percent cut in defense spending and that includes a 17 
percent cut for IRGC funding.
    The IRGC cyber command is now low on funding and the IRGC 
has told Iraq's Shia militia groups that they need to start 
looking for new sources of revenue. Our pressure campaign is 
working. It is making Iran's violent and expansionist foreign 
policy cost-prohibitive. And I would say that our policy at its 
core is an economic and diplomatic one, but Iran has not 
responded to this in a diplomatic fashion. It has responded to 
it with violence and we very much believe that Iran should meet 
diplomacy with diplomacy, not with terror, bloodshed, and 
extortion. Our diplomacy, our economic pressure and diplomatic 
isolation do not entitle Iran to undertake violence against any 
nation or to threaten maritime security.
    Happy to wrap it up there unless you would like me to 
finish. I want to be respectful of the time limit.
    [The prepared statement of Mr. Hook follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Deutch. Thank you, Mr. Hook. We appreciate your 
yielding back and appreciate your testimony. I will start the 
questions.
    Mr. Hook, the Iraq War was not that long ago. I was not in 
Congress when the Bush Administration was making its claims 
about weapons of mass destruction. Many of us were not there 
then, but John Bolton was. As Undersecretary of State for Arms 
Control, Bolton made misleading or false statements about 
biological weapons in Cuba, weapons in Syria, and of course 
about Iraq's development and stockpile of WMDs.
    Before entering the White House, he advocated for 
preemptive strikes against North Korea and Iran. So you can 
understand why many of us are uneasy when we read articles that 
quote former U.S. intel officials about shoe-horning 
intelligence to fit a certain policy or former State Department 
officials saying, ``The pattern that I have seen with Bolton 
then and subsequently is that he has established quite a track 
record of cherry picking intelligence information that serves 
whatever case he is going to make.''
    Mr. Hook, I know Mr. Bolton is not the only one driving 
policy, but I am trying to lay out exactly why, despite our 
strong desire to take the Iran threat seriously and stop Iran's 
dangerous activities, there are legitimate concerns about 
taking the Administration at its word. I appreciate in your 
testimony that the policy is to avoid conflict, but there are a 
lot of people who fear that the policy is to provoke Iran so 
the U.S. has no choice but to respond. And our job here in 
Congress is to make sure that we do not put U.S. men and women 
in harm's way without a darn good national security reason.
    So when Secretary Pompeo lists recent attacks, ``instigated 
by the Islamic Republic of Iran and its surrogates against 
American and allied interests,'' and includes a bombing in 
Kabul that the Taliban had already taken responsibility for--
and nearly every expert is surprised by the claim--we as 
elected representatives of the American people deserve to know 
what is behind the claim.
    Secretary Pompeo told the Senate Foreign Relations 
Committee and I quote, ``There is no doubt there is a 
connection between the Islamic Republic of Iran and al-Qaida. 
Period. Full stop. The factual question with respect to Iran's 
connections to al-Qaida is very real. They have hosted al-
Qaida. They have permitted al-Qaida to transit their country.''
    I would refer you, Mr. Hook, to the 2001 Authorization for 
the Use of Military Force in which it says, ``The President is 
authorized to use all necessary and appropriate force against 
those nations, organizations, or persons he determines planned, 
authorized, committed, or aided the terrorist attacks that 
occurred on September 11th, 2001, or harbored such 
organizations or persons in order to prevent future acts of 
international terrorism against the United States by such 
nations, organizations, or persons.''
    Mr. Hook, is the Administration preparing to tell Congress 
that it has the authority to launch military action against 
Iran because one of Osama bin Laden's sons has been living in 
Iran?
    Mr. Hook. May I first start with the intelligence that you 
mentioned. I think, last weekend, the House Intelligence 
Committee chairman said that the evidence of Iran's 
responsibility for the attacks is, ``very strong and 
compelling.'' There is no cherry picking----
    Mr. Deutch. No, I understand.
    Mr. Hook. Yes.
    Mr. Deutch. But I would ask the question again. Are we--the 
concern obviously is that some of the statements that I have 
read suggest that the Administration is prepared to say that it 
has the authority to launch military action against Iran 
because under the 2001 AUMF because one of Osama bin Laden's 
sons has been living there. How about because there are former 
al-Qaida members living in or transiting through Iran? Is that 
enough to justify a reliance in the 2001 AUMF to take military 
action against Iran?
    Mr. Hook. Well, I am happy to answer the question. I just 
want to first underline as I said in my opening statement that 
we are not----
    Mr. Deutch. I understand the policy. I appreciate that.
    Mr. Hook. No, I am saying we are not seeking military 
action.
    Mr. Deutch. I am grateful for that.
    Mr. Hook. Right.
    Mr. Deutch. I am just talking about the concerns that we 
have based on the statements that have been made. Is the 
Administration preparing to tell Congress that it has the 
authority to launch military action against Iran because there 
is direct evidence of Iran having operational control over al-
Qaida?
    Mr. Hook. If the use of military force is necessary to 
defend U.S. national security interests, we will do everything 
that we are required to do with respect to congressional war 
powers and we will comply with the law.
    Mr. Deutch. I understand and I appreciate that. I would 
just ask again. Is there, based on what I have laid out and the 
statements made by the Secretary and the National Security 
Advisor, is it--do you believe that the Administration could 
launch an attack against Iran under the 2001 AUMF?
    Mr. Hook. This is something which the Office of the Legal 
Advisor can give you an opinion on if you would like to submit 
it. That is a legal question.
    Mr. Deutch. Well, we will submit that. In the meantime, I 
would just remind you, Mr. Hook, Article I, Section 8 of the 
Constitution grants Congress the power to declare war. I would 
ask that you remind the President and the National Security 
Advisor and the Secretary of State of that.
    And, finally, in my remaining seconds, I appreciate you 
raising Bob Levinson in your testimony. I just have one more 
simple question. What exactly is the Administration doing to 
help bring Bob Levinson home?
    Mr. Hook. When we were in the Iran nuclear deal, the last 
meeting of the Joint Commission, which is the members plus the 
EU, I was in Vienna and I requested a meeting with Iran's 
deputy foreign minister. And I raised the cases of all of the 
American citizens who are being unjustly and arbitrarily 
detained in Iran, I demanded their release. I asked for an 
update for each of them.
    We have our Special Envoy Ambassador Robert O'Brien who is 
working his entire life, his professional life is devoted to 
this, trying to bring Americans home. We are completely 
committed to this. What we have demanded is that Iran release 
these citizens. They are innocent and they need to be released. 
They know that. Conversations with the foreign ministry, which 
is often in the dark in these matters, not always very 
fruitful, but we are pursuing every avenue possible.
    Mr. Deutch. Thank you, Mr. Hook.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Mr. Hook, Iran's ballistic missile program continues 
to advance because of the assistance of Chinese proliferators. 
While the State Department has taken steps to curb this 
proliferation, most recently sanctioning these individuals on 
May 22d, they have shown adeptness at circumventing previous 
restrictions and continuing to support Iran's missile arsenal.
    Beyond the most recent sanctions, can you elaborate on the 
efforts undertaken by the Administration to counter Chinese 
weapons proliferation to Iran?
    Mr. Hook. We have made it very clear to the Chinese both 
publicly and privately that we will sanction any sanctionable 
activity. And I think nations around the world know that we 
have undertaken this campaign of diplomatic isolation and 
economic pressure with great seriousness of purpose, and I 
think as a consequence we are seeing historic levels of 
compliance with American sanctions, especially the oil 
sanctions.
    So we have now zeroed out Iran's exports of Iranian crude 
oil and we are confident that nations are going to comply with 
that. Whether it is an arms embargo, Iran is still under an 
arms embargo, I will remind the committee that that embargo 
expires in 17 months under U.N. Security Council resolution 
2231 which memorialized this deal. It also lifts the travel ban 
on General Qasem Soleimani.
    And so, we need to be looking ahead. I went up to the U.N. 
Security Council and briefed the entire Council in early May to 
talk about the concerns we have about provisions that are going 
to start expiring. The world's leading State sponsor of 
terrorism should not have an arms embargo lifted, but that is 
the path that we are on. In October 2020 the arms embargo 
expires and so do some of the travel bans.
    So, we think it is--that is one of the reasons why we 
thought it was prudent to leave the deal. It puts us in a much 
better position to sanction arms embargo violations and we are 
committed to doing that.
    Mr. Wilson. In line with that, on June the 12th, Iranian-
backed Houthi rebels launched a cruise missile at Abha 
International Airport in Saudi Arabia, wounding 26 civilians. 
You have previously stated that Tehran will be held accountable 
for the attacks of its proxies. How will the United States hold 
Tehran accountable for the Houthi rebels increased aggression 
against civilian targets?
    Mr. Hook. Well, we have been certainly trying to improve 
the competencies and the capabilities of our partners in the 
region who are on the front lines of Iranian aggression so that 
if they are attacked--and the Saudi East-West pipeline was 
attacked. You had a Saudi tanker attacked, an Emirati tanker, a 
Norwegian tanker, that investigation for some of those 
countries is still ongoing.
    We very much support these countries and their right to 
defend when attacked, especially by Houthi rebels. Iran, the 
Islamic Republic of Iran has spent hundreds of millions of 
dollars organizing, training, and equipping the Houthis to 
fight at a level beyond which makes any normal sense and it has 
prolonged and intensified the conflict.
    So we certainly would like to see a political solution so 
that we can bring the fighting to an end and end the 
humanitarian catastrophe in Yemen. Iran has been a key player 
on this and Iran is playing a very long game in Yemen. They 
would very much like to do in Yemen what they have been able to 
do in Lebanon and to use the Houthis in the same models that 
they have used Hezbollah in Lebanon.
    And so, we are looking very closely at that. And we have 
now had half a dozen attacks, Mr. Ranking Member, you mentioned 
one of them. We have had a half a dozen attacks in roughly 
about the last month and a half, and this is why we decided to 
enhance our force posture in the region so that we can 
reestablish deterrence.
    Mr. Wilson. And with the half dozen attacks, and now 
recently this week the United Kingdom and Saudi Arabia have 
identified that the United States' assessment of Iran's 
responsibility is clear, and additionally German Chancellor 
Angela Merkel has said there is strong evidence Iran is to be 
blamed for the attacks. Is there any more that you can share 
with us about identification?
    Mr. Hook. You are right and it is important to highlight 
that. I mentioned earlier the chairman of the House 
Intelligence Committee identifying Iran, but you have also had 
Chancellor Merkel, the U.K. foreign minister, the Kingdom of 
Saudi Arabia has also done that.
    I can just add some new information to this. Our 
intelligence confirms that Iranian vessels, operating in and 
around the Strait of Hormuz on June 12th and 13th, approached 
both the Front Altair and the Kokuka Courageous before each 
vessel suffered explosions. We assess this activity as 
consistent with an Iranian operation to attach limpet mines to 
the vessels. I can also say that a senior IRGC official 
confirmed that personnel, IRGC personnel had completed two 
actions.
    So we are going to keep doing what we can to declassify 
intelligence without compromising sources and methods, but 
those who have been able to see the intelligence, and you have 
mentioned many of those people, all come away without any 
question that Iran is behind these attacks.
    Mr. Wilson. Thank you very much.
    Mr. Hook. Thank you, sir.
    Mr. Deutch. Thank you, Mr. Wilson. And we are joined by the 
chairman and ranking member of the Foreign Affairs Committee, 
and I will recognize Mr. Engel for 5 minutes.
    Mr. Engel. Thank you, Chairman Deutch and Ranking Member 
Wilson. Thank you for calling this hearing. And, Special 
Representative Hook, thank you for appearing here today.
    I have been among the biggest critics of the Tehran regime 
in Congress. I did not vote for the JCPOA because I felt it did 
not prevent Iran from having nuclear weapons, it only postponed 
it. I did not like the fact that they would be awash with cash 
to continue their terrorist activities. Iran is the world's 
most prolific State sponsor of terrorism. Its support for the 
Assad regime, its abysmal record on human rights, its 
imprisonment of Americans, and all this harmful behavior has 
isolated Iran and made them a threat to our security and that 
of our allies and partners.
    These destabilizing and dangerous behaviors must end and, 
frankly, Iran's recent attacks on tankers in the Strait of 
Hormuz and the Gulf of Oman are setting the region on a course 
to a war. We obviously need to de-escalate this situation 
before the worst happens. However, the Administration's most 
recent steps seem to be pushing more toward confrontation than 
negotiation. The carrier group, rushing through the arms sale 
to Saudi Arabia--and we did a lot of work on that in this 
committee last week--coming up with a phony emergency to 
circumvent Congress and get these missiles to Saudi Arabia, 
putting more boots on the ground for supposedly defensive 
reasons, all framed by increasingly belligerent rhetoric, it 
does bother me because we should be trying to prevent 
confrontation.
    So I want to tell you what I see, Mr. Hook. I see a growing 
risk of miscalculation. I see more and more scenarios that 
could spark a conflict that could lead to the United States 
stumbling into war. And what I would like to hear from the 
Administration is the clearest possible statement that the 
United States is not looking for war with Iran and how we can 
get Iran back to the negotiating table.
    And if we cannot hear that from the Administration, I want 
to make it very clear, Mr. Hook, that military action against 
Iran without the approval of Congress is absolutely not an 
option. Congress has coequal powers under the Constitution and, 
you know, we went through 20 years of going along with wars 
because we were told certain things were a fact when in fact 
they were not.
    So I think that the Congress has to play a major role and 
the AUMF of 2001 has no relevance to the situation with Iran 
today. And I will resist the Administration using that as an 
excuse to go to war. If the Administration sees a threat that 
requires military force against Iran, your first stop is right 
here on Capitol Hill. There is no law, no aging authorization 
from another conflict--that is the 2001 AUMF--that could apply 
to war against Iran. The administration would need prior 
authorization from Congress before going to war.
    So I want to just make my position very clear and say that 
my opinions of the Iranian regime have not changed. They are 
dangerous. They are the most dangerous regime in the Middle 
East and they are the No. 1 State sponsor of terrorism. But 
that is not an excuse for the United States to plunge into 
another war without congressional approval.
    Let me ask you this, Mr. Hook. Secretary Pompeo said last 
week that Iran was conducting these attacks in the Gulf to 
convince the United States to lift its, and I quote him, 
``successful maximum pressure campaign.'' While sanctions and 
other forms of pressure have undoubtedly hampered Iran's 
economy, there is little indication they have changed the 
behavior of the Iranian Government or reduced Tehran's regional 
influence. So how would you define success in terms of the 
maximum pressure campaign?
    Mr. Hook. In my opening statement, I presented a number of 
things that we are seeing in the region that suggest that 
Iran's proxies do not have the financial means that they used 
to under the Iran deal because our sanctions are denying the 
regime historic levels of revenue. Iran provides Hezbollah, Mr. 
Chairman, I am sure as you know, 70 percent of its operating 
budget. That is $700 million a year. The leader of Hezbollah, 
in March, had to make a public appeal for donations. It is the 
first time they have done that in their history.
    You have Shia proxies in Syria saying to the New York 
Times, ``The golden days are gone and they are never coming 
back. Iran does not have the money that it used to.'' I 
mentioned there has been a 28 percent cut to Iran's military 
budget, in March. During the Iran nuclear deal, Iran's military 
spending reached record levels.
    So our sanctions are working and they are denying the 
regime the revenue that it otherwise spend in with on Hamas, 
Palestinian Islamic Jihad, Hezbollah, Shia proxies in Syria, 
Iraq, the Houthis in Yemen, underground groups in Bahrain. And 
so that is a very good thing. It is also the case that Iran has 
never come to the negotiating table in its 40-year history 
without pressure. And prior administrations have--sorry.
    Mr. Engel. No, no. I am sorry. I did not mean to cut you 
off. But I want to--it is in reference to what you are saying 
now. So, is our ultimate goal or is the Administration's 
ultimate goal to compel Iran to negotiate and does U.S. 
strategy match the intelligence community's assessment on how 
to get Iran to negotiate?
    Mr. Hook. It does. It does.
    Mr. Engel. It does. OK.
    Well, thank you, Mr. Chairman. I think my time is out.
    Mr. Deutch. Thank you, Chairman Engel.
    Ranking Member McCaul, you are recognized.
    Mr. McCaul. Well, thank you, Mr. Chairman and Ranking 
Member. I have a very brief statement and I have a couple 
questions.
    Just last week, Norwegian and Japanese oil tankers lawfully 
traversing the Gulf of Oman were attacked by Iran. We have all 
seen the evidence for ourselves. This was Iran's second attack 
on international shipping in weeks. Moreover, Iran attempted to 
shoot down a U.S. surveillance drone in the area. These attacks 
were no coincidence within days of the Administration's 
announcement they would no longer grant waivers for Iranian 
oil. Tehran responded with threats to protect and defend Iran's 
waterway as a retaliatory measure.
    This spring, Iran displayed propaganda on a billboard in 
downtown Tehran showing United States and Israeli ships being 
sunk in a battle. The billboard read in English, Farsi, Hebrew, 
and Arabic, ``We drown them all.'' Total propaganda, not to 
mention the fact that they fired a rocket at our embassy in 
Iraq.
    Iran continues to flout U.N. Security Council ballistic 
missile sanctions. They continue to enable its network proxies 
to wreak havoc. In fact, the top general in Iran called for 
prepare for war to the proxies. Our general said the threat is 
imminent. Of particular concern are the Houthi attacks on Saudi 
oil fields and airports.
    The threat Iran poses to the United States goes back to 
1979 in the storming of the U.S. embassy in Tehran and has 
continued with the deaths of 600 servicemen from 2003 to 2011 
which Iran bears responsibility for. In May, the threat to U.S. 
personnel in Iraq was judged so significant that many of our 
diplomats were evacuated. A few days later, as I mentioned 
earlier, a rocket landed near the U.S. embassy in Baghdad.
    Iran's announcement that it will begin enriching and 
stockpiling uranium in violation of international commitments 
should concern everyone on the planet. All these actions reveal 
desperation on the part of Iran. In my view, the sanctions are 
working. It is crippling Iran and it is crippling their 
economy. They are cash starved and Hezbollah now is begging for 
cash. To me, these are all positive signs. Their cries for 
attention are a call for action for the United States and our 
allies.
    I believe our maximum pressure campaign is working. We must 
continue to meet their aggression with forceful diplomacy. And 
I believe all of us, the Administration, Republicans and 
Democrats on the Hill, agree that peace is preferable to war. 
No one wants to see military action against Iran, but rest 
assured the United States will be prepared to respond to any 
attacks against our security and security in the region.
    My question has to deal with the thousand troops that have 
been deployed in the region and our military assets and what is 
the purpose for their presence and are we, do we have any 
contingency military plans?
    Mr. Hook. Thank you for your statement, Mr. Ranking Member. 
Yesterday, Secretary Pompeo and I traveled to Tampa, Florida 
and met with the new commanding general of both CENTCOM and 
SOCOM. We had very good discussions while we were there. We 
want to make sure that we are deeply coordinated with the 
Defense Department across a broad range of issues.
    As you pointed out, we have sent about a thousand 
additional troops to the region. The decision to deploy, to 
expedite the passage of the USS Abraham Lincoln Carrier Strike 
Group, was made on May 3d. We started in late April and early 
May, started to receive very credible and very disturbing 
intelligence threat streams that Iran was plotting attacks 
against American interests in multiple theaters. And the 
President and his national security cabinet were agreement that 
we needed to enhance our force posture in the region, which we 
have done.
    We think that that has helped to decrease the risk of 
miscalculation, and a lot of what we were concerned about at 
the time has not come to pass for the time being. We have not 
relaxed our vigilance against these threats from various 
vectors and I think we have put in place the right kind of 
policy to restore deterrence against these attacks.
    What we have seen so far have not been on the scale that we 
have expected, but that does not mean that Iran is not capable 
of doing those things. But we have made it very clear that 
there will be severe consequences if Iran does go down that 
road.
    Mr. McCaul. I appreciate your message of deterrence and 
defending our allies in the region and our interests and 
commerce in the Strait of Hormuz, which is vitally important to 
energy throughout the world.
    I just want to conclude with this, Mr. Chairman. That in 
our Department of Defense approps bill that we will be voting 
on, there is a repeal--you talked about the AUMF and I think it 
is something this committee if, God forbid, we do go to war 
with Iran, which I do not think will happen. I think, you know, 
I think as Churchill talked about, you know, weakness invites 
aggression. Reagan talked about strength through peace, peace 
through strength. You are showing strength. But in this DOD 
approps bill it repeals the 2001 AUMF without a replacement. 
That would mean, Mr. Chairman, that all global counterterrorism 
operations worldwide will be unauthorized by Congress. I think 
this is a very dangerous move. I think we should reconsider 
that bill that is going to be voted on this week before the 
Congress. And with that I yield back.
    Mr. Deutch. I thank Ranking Member McCaul.
    Mr. Trone, you are recognized.
    Mr. Trone. Thank you, Mr. Chairman. And, thank you, Mr. 
Hook, for your service.
    Like my colleagues, I am concerned about what looks like 
deliberate attempts by the U.S. to be on a war footing with 
Iran. I am not convinced that it is an effective way to bring 
Iran to the negotiating table, if that is indeed what President 
Trump wants. But I am also interested in what is our end game. 
There are roughly 40 million of the 80 million folks in Iran 
that are on the young side, 25 to 54. They are going to be here 
a long time and many of those folks have very pro-American 
attitudes.
    How do we seek to work with those younger folks that have a 
pro-American attitude for a better future for them, yet still 
hold a tough line with the regime while letting the others know 
we are open? Thinking long term, five, ten, 20 years down the 
road would be a better move than just thinking about short 
term. What are your insights in this area?
    Mr. Hook. It is a very good question. The longest suffering 
victims of the Iranian regime are the young people of Iran. And 
whenever there have been major protests, the regime has 
responded with brutality. And it has been very hard for an 
organized opposition to emerge in Iran in the way that 
Solidarity emerged in Poland.
    So, in fact, much of the energy that you see in Iran today 
is through the women's movement and protesting the mandatory, 
compulsory wearing of the hijab. As you sort of look at our new 
foreign policy to Iran, it certainly has a diplomatic piece. It 
has a piece to restore deterrence. One of the most important 
pieces has been standing with the Iranian people.
    I recently, a few months ago, taped a video message to the 
Iranian people outside of the Iranian embassy, which is on 
Massachusetts Avenue, and I contrasted how we have taken care, 
the State Department under its obligations, international 
obligations has maintained this embassy. The Iranian regime has 
turned our embassy into a museum of the Islamic Revolution with 
``Death to America'' spray painted in signs around the embassy.
    The Iranian people do not believe in death to America. We 
believe as you said that they are pro-American. And this regime 
has divided, I think, the Iranian people and the American 
people in ways that obviously 40 years have been tragic, I 
think, for the Iranian people. We are going to continue to 
stand with them. Much of what we are demanding on that list of 
12 are the same demands the Iranian people are making. They do 
not want to see this regime spend billions of dollars to fund 
Assad, who uses chemical weapons, while they are struggling at 
home.
    We have seen them gravely mismanage their natural 
resources. I released a report in September of last year. To 
the best of my knowledge it is the first report issued by the 
Federal Government documenting the environmental destruction of 
this regime over the last 40 years. I will give you one 
example. When this regime came to power there were six ancient 
dams and seven modern dams. That was in 1979. Today, there are 
600 dams that have been built. They are largely job projects 
for the IRGC, so the elite get richer and the poor suffer, and 
so we call these things out.
    And so, when you look at the drought that has plagued all 
of Iran, it is compounded by this regime's mismanagement. It is 
a kleptocracy. It is a corrupt, religious mafia that serves its 
own interests and robs its own people blind.
    Mr. Trone. Quickly, let's turn our attention to Egypt, the 
tankers that go and bring the illicit crude oil from Iran to 
Syria through the Suez. In March, the Wall Street Journal 
reported Egyptian authorities blocked the crossing of at least 
one tanker. But in May and June, there has been a sharp 
increase of these shipments of oil despite the escalation of 
sanctions. Has Egypt has become less cooperative in its efforts 
to prevent illicit Iranian oil shipments from passing through 
the canal? And in State's view, does Egypt have an obligation 
to prevent the oil shipments passing through the Canal?
    Mr. Hook. You have asked the right question. It is a very 
good question. I have made trips to Egypt, Secretary Pompeo 
has, my colleagues on the National Security Council have 
traveled there, to discuss the very issues that you have 
raised. Egypt does have to administer the Constantinople 
Convention, too, as the operator of the Suez Canal. It has 
certain obligations and responsibilities under that Convention.
    We have had many discussions with them about that. Now that 
we have zeroed out imports of Iranian crude oil, any oil that 
is moving on the waters unless it is going into floating 
storage or something like that, but if it is leaving Iran and 
it is not going to floating--and it is going to a country, it 
is illicit and we have sanctioned it. We have already 
sanctioned some illicit oil and we will continue to do that.
    We have made ship operators around the world to understand 
that this money, this oil that finds its way into Syria or into 
Lebanon is IRGC oil. Now that we have used congressional 
authorities to designate the IRGC and the Quds Force as a 
foreign terrorist organization, that allows us to prosecute and 
to hold people criminally liable as a felony the material 
support to the IRGC and the Quds Force.
    So we plan to use the authority vigorously. We have used it 
vigorously in the context of Hezbollah and we will use it in 
this context. And we believe there is an opportunity there. We 
do not believe that any port operator or any ship operator 
should take on the liability of working with Iranian tankers.
    Mr. Trone. Thank you.
    Mr. Deutch. Mr. Kinzinger, you are recognized.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And, again, sir, thank you for being here and for your 
service. I think it is important at the top of this that we 
note that when we talk about Iran, we are talking about the 
government and not the people, two very different things and I 
think that is important to distinguish.
    I think it is interesting in all this, I remember prior to 
this administration still having concerns about Iranian attacks 
to troops in interests in the region, so it is not like this is 
something that has popped up with the election of President 
Trump. I mean, specifically, in our counter-ISIS campaign there 
was a lot of worries about what would happen to the re-
energized Shia militias in Iraq.
    And so, a quick point to the--I think I would say some, not 
my friends necessarily on the other side of the aisle, but 
things we hear, the blame America first crowd that use Cuba, 
for instance, and Venezuela is a great example of how to do 
governance, first off, 9/11 was not an inside job. The Bermuda 
Triangle is not aliens. We landed on the moon. Vaccines save 
lives. And Iran did the attack in the Gulf.
    And that is, I think, the biggest thing to understand. You 
continue to see the conspiracy theorists that pop up that can 
take any amount of evidence and try to cast blame and say it is 
a false flag, and usually we relegate those to the very 
extremes of political discussion. But I think sometimes we are 
seeing that enter the more mainstream now because, frankly, 
some people have let politics get in the way of good foreign 
policy.
    And I think another point is, look, innocent Iran is not 
the result of, you know, meany Americans. The reality is this 
has been a battle against the United States, our interests, 
Israel's interests, and our allies' interests for a very long 
time, for 40 years.
    I want to ask you a few questions though. Thinking of 
Lebanon specifically, is Hezbollah better off with the deal in 
place or without the deal in place? And I am going to ask a 
series of kind of quick ones, so.
    Mr. Hook. When we were inside the Iran nuclear deal we were 
not able to use any of our energy or financial sanctions. The 
energy sanctions come to about $50 billion in revenue and that 
is the amount of revenue that a policy of zero imports of 
Iranian crude oil can achieve.
    Mr. Kinzinger. And well, so, I just was in Lebanon and what 
I am hearing is Hezbollah is not better off now because of----
    Mr. Hook. It is not. It is not. So, Iran has less money to 
spend today on its proxies than it did when this administration 
took office.
    Mr. Kinzinger. And how much humanitarian aid has Iran sent 
to the Houthi rebels in Yemen or to the Houthi population in 
Yemen?
    Mr. Hook. I am not aware of any aid that has gone from Iran 
to the Houthis.
    Mr. Kinzinger. How many people do we estimate have died in 
the Syrian civil war, a general estimate?
    Mr. Hook. I believe it is around a half a million who have 
died in the Syrian civil war and hundreds of thousands have 
been displaced.
    Mr. Kinzinger. Do you think Assad could have survived 
without the help of Iran?
    Mr. Hook. I think it is a very open question. It is 
certainly that Iran by--Iran deployed 2,500 IRGC fighters and 
they recruited 10,000 fighters from Afghanistan and Pakistan 
and other parts, so that together that is 12,500 troops that 
Iran organized. They gave Assad $4.6 billion in lines of credit 
and billions of dollars in revenue. It would have made a big 
difference had Iran not been on the field.
    Mr. Kinzinger. And I will mention that that was during the 
existence of the Iran nuclear deal. Approximately, I do not 
need the number, but generally, do you know how many Americans 
died in Iraq as a result of Iran?
    Mr. Hook. Six hundred and three Americans were killed by 
Iran. That is 17 percent of the total casualties during the 
Iraq War of Americans who were killed.
    Mr. Kinzinger. Do you know in the last, say, 20 years how 
many U.S. military open strikes have we done in Iran?
    Mr. Hook. Zero.
    Mr. Kinzinger. Do you--let me ask another. Do you see 
strong nations that are confident in their future sabotaging 
oil tankers? Is that a typical kind of thing?
    Mr. Hook. It is not a pattern of behavior we have detected 
in the region.
    Mr. Kinzinger. Has the U.S. ever put limpet mines and 
sabotaged oil tankers?
    Mr. Hook. No.
    Mr. Kinzinger. And let me--I want to ask, mention a quick 
point about the Iran nuclear deal. So this was actually signed 
into law in 2015. The year obviously now is 2019. It has been 4 
years, and as we all know time flies by, so if you think about 
that fact it is pretty incredible. So I want to advance, 
basically, 4 years, so that amount of time ahead today.
    So in 2020, the U.N. ban on Iranian arms exports and 
imports will lift under the Iran nuclear deal. In 2023, so 
basically an exact amount of time from 2015 to today, again, 
the U.N. ban on assistance to Iranian ballistic missiles will 
end, ban on manufacture of advanced centrifuges will begin to 
expire. Assuming congressional approval, U.S. nuclear sanctions 
will lift.
    And in that time again, 2025, snap back provisions will 
expire. In 2026, the cap on IR1 centrifuges will lift. The ban 
on replacing those with more advanced models will expire and 
restrictions on centrifuge research and development will end. 
And in 2031, all restrictions lift.
    I make that point, sir, for those that think this is some 
amazing deal that will last perpetually into the future that we 
are already halfway to the beginning of this deal starting to 
expire, and we saw only worse behavior from Iran.
    So with that, Mr. Chairman, I thank you. And again, Mr. 
Hook, thank you for being here. And I yield back.
    Mr. Deutch. Thank you, Mr. Kinzinger.
    Mr. Keating, you are recognized.
    Mr. Keating. Thank you, Mr. Chairman.
    I would like to initially say that, you know, years ago 
when I was in Iraq, just hours later I did see a rocket-
propelled, Iranian rocket-propelled explosive device, take the 
lives of American soldiers that I was eating with just hours 
before that.
    So this is no question, is no way at all to excuse their 
hostile activities, inexcusable activities, but I want to just 
look at your testimony a moment and just ask a couple of 
questions. No. 1, when you are talking about the non-nuclear 
activities of Iran, the malign activities, the missile testing, 
yes or no, the U.S. still had the option for sanctions and 
other actions even if we continued with the JCPOA, so we did 
have options absent leaving the JCPOA; is that correct, yes or 
no?
    Mr. Hook. Bad options.
    Mr. Keating. Yes or no, did we have options?
    Mr. Hook. Bad options.
    Mr. Keating. All right, we had options.
    Mr. Hook. Bad options.
    Mr. Keating. Later on, you are just saying that the 
decision to perhaps move forward with enrichment is a result of 
the fatal flaw of the agreement. Wasn't it true that Iran was 
conforming to the agreement? I have heard no countries say that 
they were not conforming to the nuclear agreement, abiding by 
it. And it was only after we tore up that agreement and moved 
away from a nuclear deal that provided some protection, clear 
protection, much greater protection from the nuclear threat of 
Iran, that it was the tearing up of that that was the causal 
effect, not a fatal flaw that was resulting in that.
    And I think I will leave that as a statement because you 
are not likely to agree with it. But I believe it is true.
    And in your testimony, just to get some consistency, you 
know, in other hearings we have had in our subcommittee and the 
committee as a whole, we are looking for policies and 
consistencies and resolve. In the conclusions even of minority 
witnesses we have no Russia policy. We have no China policy. We 
have no North Korea policy. We have no Syrian policy.
    So, in your testimony, I just want to point out that you 
said Iran supported Assad's brutal war machine as the Syrian 
regime killed hundreds of thousands and displaced millions. 
Could you not say the same thing of Russia, exactly the same 
thing of Russia's activities?
    Mr. Hook. I am going to leave that. We have a special----
    Mr. Keating. Well, no. Could you not just as a layman, 
could you not say it?
    Mr. Hook. Well, I want to stay out of Jim's lane----
    Mr. Keating. Well, I do not want lanes here because that is 
precisely the point. If you do not have policies you can go 
into lanes that go nowhere.
    Mr. Hook. Oh, no, no. I am happy to answer the question. We 
inherited the Russian military in Syria when we came into 
office, and so we had options as we were facing ISIS. The 
President made as his No. 1 priority the defeat of ISIS. He and 
Secretary Mattis put into effect a policy that achieved that 
objective. And so, we are very pleased with what we have been 
able to do to end the territorial caliphate that existed in 
Iraq and Syria.
    Mr. Keating. But you said in your testimony as part of the 
rationale with Iran is Iran supported Assad's brutal war 
machine in Syria.
    Mr. Hook. Yes.
    Mr. Keating. It killed hundreds of thousands and 
displaced--I can make the argument that Russia was more pivotal 
than any country in turning the tide there and more responsible 
than any country other than Assad himself. I mean, so what is 
the consistency with Russia? Why are we not dealing with that 
issue with Russia?
    Mr. Hook. In my statement I did not say that Iran had 
eclipsed Russia in culpability.
    Mr. Keating. You left it out.
    Mr. Hook. I am the Iran Envoy, so----
    Mr. Keating. OK.
    Mr. Hook [continuing]. I cover Iran. I am trying to make 
clear what Iran is doing in Syria.
    Mr. Keating. This is the frustration we are having with the 
Administration. Everyone has their lanes. Everyone speak--you 
cannot deal with lanes when you are dealing with policy and 
there is no overarching policy and it is moving closer to 
conflict in this instance. I mean we are reaching a very 
serious stage, here.
    Can you just explain to me, finally, in the few seconds I 
have left, what is that thread from the initial authorization 
to use military force that exists now they have been using? 
Explain to me the thread of how that could be used in this 
Iranian situation and the current conflict we are in now. To 
me, the thread doesn't exist. So explain to me where that 
thread is.
    Mr. Hook. And could you--what do you mean by the thread, 
which thread?
    Mr. Keating. The thread that pulls together the 
authorization to use military force that we are using against 
terrorists and extremists, currently, how does that apply to 
Iran? I do not see a connection at all.
    Mr. Hook. We have not used military force against Iran. We 
have enhanced our force posture in the----
    Mr. Keating. The Secretary said just 2 months ago that that 
is on the table; that that could be used absent action from 
Congress. So how--you are here in your lane representing the 
Secretary who said that that is something they could do. So I 
want to explain--since you are here and not the Secretary, I 
want to ask you where is the connection? I see none. I think 
you have to go to Congress to act in any kind of kinetic 
actions with Iran, absent our instant self-defense.
    Mr. Hook. I had answered that question earlier for the 
chairman. I am happy to repeat the answer.
    Mr. Keating. Please.
    Mr. Hook. We will do everything we are required to do with 
respect to congressional war power----
    Mr. Keating. No, no. I asked--that is not the same 
question.
    Mr. Hook [continuing]. And we will comply with the law.
    Mr. Keating. Where is the thread? Where is the connection? 
That is not the same question.
    Mr. Hook. I am happy to explain this as best I can. We 
received credible threat reporting in late April and early May 
that Iran was plotting imminent attacks against American 
interests in multiple theaters. We enhanced our force posture 
in a defensive mode so that we could protect ourselves if 
attacked. That is it. That as far as we have taken this and no 
farther.
    Mr. Keating. So there is no threat in the future that I 
have heard from you. I yield back.
    Mr. Deutch. Thank you.
    I would just let the members know that votes could be 
called as early as 1:15. The witness has to appear in the 
Senate at 2 so we will not be able to come back after votes. If 
members choose to use less than their 5 minutes, we will be 
able to get everyone in. I leave that up to you.
    Mr. Zeldin, I recognize you.
    Mr. Zeldin. Thank you, Mr. Chairman.
    And, Mr. Hook, thank you for being here. There was strong 
bipartisan opposition to the Iran nuclear deal in this room. We 
asked--I asked Secretary Kerry why the deal was not being 
submitted as a treaty. The reason was because they were not 
able to get it passed. That was Secretary Kerry's answer to the 
question here in this room. There are flaws with the Iran 
nuclear deal that many have acknowledged in a bipartisan 
fashion as Mr. Kinzinger was just discussing with regards to 
the sunset clauses that are fast approaching.
    The verification regime, we were told by President Obama 
and Secretary Kerry this deal was not built on trust, it was 
built on verification. They never read the verification regime. 
I am a Member of Congress. None of us have read the 
verification regime that was entered into between the IAEA and 
Iran. So there are flaws with the verification regime, but we 
do not even know the full extent of everything that was agreed 
to.
    And then third, all of the non-nuclear bad activities or 
the malign activities, many which we have gotten into, by 
withdrawing from the Iran nuclear deal much of the leverage is 
coming back to the table that brought the Iranians to the table 
in the first place. I am not surprised at all to see Iran 
acting out as they are feeling the pressure. They are feeling 
the pressure from the sanctions. They feel pressure from 
hardliners within their own country. Some of it is related to 
the domestic politics, plus they are the world's largest State 
sponsor or terror and they have other ambitions.
    Understanding the scope of the malign activities, non-
nuclear activities included test-firing intercontinental 
ballistic missiles. The intercontinental is not for Israel, the 
intercontinental was meant for us. The Houthis, helping the 
Houthis overthrow the government in Yemen, the support for the 
Assad regime, support for Hezbollah, the activities that we 
have seen beyond just those, and of course as Mr. Kinzinger 
often points out, as he should, the killing of United States 
service members.
    We had no leverage left to be able to deal with all these 
other activities. Some would argue we did have leverage. Well, 
the Iranians were not at the table. And the conditions may not 
yet be set to be able to negotiate something in the middle of 
June 2019, but we are getting there and the strategy is 
working.
    Now I think it is important that you are here to clarify 
what the Trump Administration's policy is with regards to Iran 
and I think it is our responsibility as Members of Congress to 
give you that opportunity to clarify it and certainly not to 
muddy the waters. I believe that President Trump believes that 
Iran is an adversary that does not respect weakness, they only 
respect strength. We cannot be silent not because we want war, 
but because we want to prevent it.
    We have many people in our Federal Government, some might 
be political appointees, some might be career, who believe in 
the four instruments of national power, in the diplomacy, 
information, military, economics. There is a belief that by 
having the military option on the table that diplomacy, 
multilateral, bilateral, the information campaign, the economic 
pressure, are all more effective. The military option is the 
last possible option. I have spent a lot of time with the 
President of the United States and we have discussed this 
topic. The President does not want to go to war with Iran.
    The President of the United States does not want to go to 
war with Iran. But there is a belief in the four instruments of 
national power that by having the option on the table, it is 
the last possible option, that it helps make the other aspects 
of our instruments of national power more effective.
    I also wanted to point out something with regards to the 
Iranian people. There are millions of Iranians who are great 
freedom-loving people who want a better future for their 
country and there is no one more motivated in the entire world 
to have a better direction for their country than those many 
millions of Iranians who right now--talking about young 
Iranians and the impact that they are feeling, young Iranians, 
we are talking about people under the age of 50, 55, people 
their entire lives and their kids' entire lives have only known 
this brutal regime that oppresses its own people.
    With the brief time that we have left, have there been any 
ways prior to exiting the JCPOA that Iran violated the letter 
of the JCPOA?
    Mr. Hook. Could you say that one more time?
    Mr. Zeldin. Before we withdrew from the JCPOA, are there 
any examples of Iran violating the letter of the JCPOA? For 
example, assembling additional advance centrifuges which Annex 
I, Paragraph 61 prevented, or exceeding IR6 centrifuge 
allowances, or twice going over the heavy water amount that the 
IAEA acknowledged, or refusing access to military sites?
    Mr. Hook. Yes. I remember when I was in Vienna for the 
meeting of the Joint Commission, I had raised some of these 
issues. There have been what I have called tactical violations 
of the Iran nuclear deal. We have not seen a material breach. 
The regime has recently threatened material breach of the Iran 
nuclear deal. That is the best I can do to answer that 
question.
    Mr. Zeldin. Yes, I think it is just important to note--and 
my time is up--that there have been violations of the JCPOA 
that a lot of people may not be aware of. I yield back.
    Mr. Deutch. Thank you.
    Thank you, Mr. Zeldin. And, Mr. Sherman, you are 
recognized.
    Mr. Sherman. Thank you, Mr. Chairman.
    It is a tragedy that the Nation that gave us the first 
human rights document, the Cyrus Cylinder, a nation that has 
been at the forefront of world civilization for four millennia 
is ruled by this regime. We need democracy in Iran, but it will 
not come from an American military force, it will come from the 
Iranian people.
    There is discussion, Mr. Hook, of possible military action 
against Iran. Is it the Administration's position or 
understanding that they need to abide by the War Powers Act 
which limits the power of the President to deploy our troops 
into hostilities?
    Mr. Hook. I think we--let me first just say to echo your 
first point, let's be very clear. The future of Iran will be 
decided by the Iranian people. I cannot say that enough times.
    Mr. Sherman. And I would add that the United States has in 
the past sponsored democracy conferences, reached out through 
the State Department Bureau of Democracy, Human Rights, and 
Labor, and that America can provide some assistance to those 
working for democracy in Iran. I would like to see us take all 
the radio broadcasts that I hear in Los Angeles in Farsi and 
get them retransmitted, very inexpensively I might add, so that 
the Iranian people could hear the hundreds of different 
opinions and see the flowering of different ideas and see what 
a public free debate is like.
    But let's go back to the War Powers Act.
    Mr. Hook. As I think I said earlier, we are not looking for 
military action. We have kept our foreign policy squarely in 
the guardrails of economic pressure and diplomatic isolation.
    Mr. Sherman. I understand that and I will point out that if 
the economic pressure we were imposing was given--if we gave 
the reason for that being Iran's wrongful actions in Syria, 
which have cost hundreds of thousands of lives not to mention 
Yemen, et cetera, and their human rights, we could have stayed 
in the JCPOA so they would be bound by it and they would still 
be subject to the same sanctions. But instead, we have pulled 
out of the JCPOA which, as you point out, Iran may be in 
material breach of and we will cross that bridge when we get--
well, that is, it is important we as the legislative body that 
we focus on what the legal parameters are.
    And I know it is not your intention to invade Iran, but 
this is a discussion of your legal right to do so, or the 
Administration's legal right to do so, without Congress. And it 
is quite possible you will come to Congress under extreme 
conditions and ask for this or that authority. But based on the 
authorities that you have now, what is the power of this 
administration? Are they subject to the War Powers Act?
    Mr. Hook. I am not a War Powers Act scholar. I can only 
tell you that everything that we do would be lawful and 
everything that we are trying to do now is defensive. I cannot 
underline--there is no talk of offensive action. We are 
trying--it is a defensive move that we have made.
    Mr. Sherman. I understand. It is not the position of the 
Administration that the 2001--and we talked about this earlier 
that the 2001 Authorization to Use Military Force against those 
who carried out 9/11 would authorize a war against Iran, 
correct?
    Mr. Hook. I am not a scholar in this area.
    Mr. Sherman. Do you take the--did the Islamic Republic bomb 
us on 9/11?
    Mr. Hook. Did the Islamic Republic bomb us on 9/11?
    Mr. Sherman. Did the Islamic Republic and one of the 
entities responsible for the deaths on 9/11?
    Mr. Hook. No.
    Mr. Sherman. Thank you. I would point out that we have had 
legal scholars in this room talk about the War Powers Act and 
those who claim it is unconstitutional have said, however, that 
the power of the purse is critical and decisive and binding.
    And I would point out that we will, this week, pass a 
defense appropriations bill that contains a provision that we 
first put in there in 2011 when I offered it as an amendment, 
and we have been able to get it into the base text so nobody is 
talking about it because we do not have to vote on it, that 
says that no moneys can be spent in contravention of the War 
Powers Act. So if we were to deploy military forces in 
contravention of that act, we would not only be in violation of 
that law, we would be in violation of the appropriations bill.
    So I hope very much that we work together to change the 
policy of this regime short-term, particularly with regard to 
Syria and the Strait of Hormuz, and longer term that we bring 
democracy to Iran. I yield back.
    Mr. Deutch. Thank you. Mr. Reschenthaler, you are 
recognized.
    Mr. Reschenthaler. Thank you, Mr. Chairman. And thank you, 
Mr. Hook, for being here today. As a veteran of the Iraq War, I 
sat face to face in the courtroom with members of al-Qaida 
terrorists who had made and planted IEDs, and murderers. I saw 
firsthand the successes and failures of U.S. foreign policy in 
the Middle East.
    While our political, military, economic, and technological 
advantages are unmatched, Iran remains one of the greatest 
threats destabilizing the globe. As the world's largest State 
sponsor of terror, Iran continues to sow chaos in Yemen through 
the Houthi proxies, continues to fund Hezbollah in Lebanon and 
across the world, continues to prop up the Assad regime in 
Syria, and chants ``Death to America'' in its capital of 
Tehran.
    Mr. Hook, can you explain the larger strategic benefits and 
goals of the U.S.-Saudi Arabia relationship and the negative 
impacts of abandoning that relationship as it pertains to U.S. 
national security interests in Iran?
    Mr. Hook. I think you see our foreign policy emerging quite 
clearly in Riyadh. The President's first trip overseas was to 
Saudi Arabia. They had brought together, I want to say, 55 Arab 
Muslim nations, one of the largest gatherings that anyone can 
recall. The President spoke. King Salman spoke. And we talked 
very much about the need to confront extremism and to counter 
extremism.
    And we also want to as part of burden sharing, America, the 
experiences that you describe, there are so many people who can 
talk about that in our military, and we are doing everything we 
can to expand burden sharing. And that requires improving the 
capabilities of our regional partners so that they can be a 
counterweight to Iran. And that reduces the burden on us to 
provide the levels that we have done historically.
    And so whether it is Saudi Arabia or UAE or Jordan, Israel, 
a number of countries in the region, we very much want to see 
them in a position of strength and in sovereignty. Iraq, we 
very much want to see Iraq strong, stable, and sovereign. We 
want the Iraqi military to have a monopoly on military force. 
We do not want to see the PMF, especially those that Qasem 
Soleimani organizes, trains, and equips, to be stronger.
    We do not need two States within a State. We do not need 
two militaries within a State. That is what we have in Lebanon. 
This is the foreign policy agenda of Iran. It is to try to 
create two militaries and two States within a State and to 
stoke sectarian identities, catalyze sectarian identities and 
dissolve national identities. When we talk about how like Iran 
destabilizes the Middle East, this is what we are talking 
about. Iran pours sort of this--it adds this religious 
dimension to political conflicts which has increased bloodshed 
and suffering.
    And so, to the extent that our policy is denying Iran the 
revenue and a lot of the capabilities it has to support these 
proxies, that improves the situation in the Middle East.
    Mr. Reschenthaler. Thank you, Mr. Hook. I yield to my 
colleague from New York.
    Mr. Zeldin. Thank you. Mr. Hook, is it true that in 
February 2016 and November 2016 that Iran had acquired more 
heavy water than they were allowed to under the JCPOA according 
to the IAEA?
    Mr. Hook. I can give you the specific answer to that but we 
had registered concerns that and I believe----
    Mr. Zeldin. That can be a yes or a no.
    Mr. Hook. I believe the answer is yes that they had 
increased the stockpiling of heavy water.
    Mr. Zeldin. That is correct. OK.
    Mr. Hook. And we had raised--I had raised that when we were 
in Vienna. It is a while ago.
    Mr. Zeldin. Is it not true that Iran had acquired more than 
the necessary amount of IR8 centrifuge rotor assemblies for R&D 
purposes with 16 times more capacity than the IR1 to enrich 
uranium?
    Mr. Hook. Our assistant secretary Chris Ford would be able 
to answer that specifically. I do not have that answer in front 
of me. We are happy to give you the answer to that.
    Mr. Zeldin. I would like you to know that so if you can 
also speak to Mr. Ford as well, because you should be able to 
answer in the affirmative.
    Also, Iran, isn't it true that they acquired more--
assembled more IR6 centrifuges than they were allowed to under 
the JCPOA?
    Mr. Hook. I believe that is the case. We have a bureau that 
does only this----
    Mr. Zeldin. Yes, OK. I understand the point and we had the 
back and forth earlier. But I think it is important for you to 
have these answers with regards to their violations during, 
while we were in the plan.
    Mr. Deutch. Thanks. The votes have been called. We are 
going to keep going as long as we can.
    Mr. Lieu, you are recognized.
    Mr. Lieu. Thank you, Mr. Chair.
    Thank you, Mr. Hook, for being here. I agree with you that 
Iran is a malignant State actor. That is a totally different 
issue as to who is authorized to allow force to be used against 
another country.
    So under our Constitution, does the President have the 
power to declare war?
    Mr. Hook. I think this is a discussion----
    Mr. Lieu. It is not a trick question. Under our 
Constitution, does the President have the power to declare war? 
It is just a yes or no.
    Mr. Hook. We are----
    Mr. Lieu. OK, all right. Let me make it really easy for 
you. Under the Constitution, Congress has the power to declare 
war, correct? It is not a trick question, sir. Have you read 
the Constitution?
    Mr. Hook. We will do everything we are required to do.
    Mr. Lieu. Mr. Hook, have you read the Constitution?
    Mr. Hook. I have read the Constitution.
    Mr. Lieu. OK, under the Constitution, the framers gave 
Congress the power to declare war, correct? It is just a yes or 
no.
    Mr. Hook. This is--my understanding is that we are here to 
talk about Iran foreign policy, which I can do. If there was a 
separate hearing----
    Mr. Lieu. Under the Constitution the framers gave 
Congress----
    Mr. Hook [continuing]. On war powers, I believe we should 
have----
    Mr. Lieu. OK. Mr. Chair.
    Mr. Hook [continuing]. If there's a hearing on war powers--
--
    Mr. Lieu. Mr. Chair. I am going to stop this line of 
questioning. I am going to submit the U.S. Constitution for the 
record.
    Mr. Deutch. Without objection, Article----
    Mr. Lieu. OK, now. Let's ask about crafting Iran policy. 
You would agree, wouldn't you, that in crafting Iran policy, or 
actually any policy in the State Department, you want employees 
who have expertise in that subject area; isn't that right?
    Mr. Hook. We have many experts on Iran in the State 
Department.
    Mr. Lieu. OK. And you have career employees that worked in 
prior administrations both Democratic and Republican and they 
go through different administrations. It would not be 
appropriate to remove a career employee simply because they 
worked in an administration of a different party, correct?
    Mr. Hook. That is a personnel question that I would refer 
you to the personnel department on that.
    Mr. Lieu. It is not trick question. We do not remove career 
employees because they happen to be--work in a prior 
administration; isn't that right?
    Mr. Hook. Can you ask the question one more time, please?
    Mr. Lieu. OK. You have career employees that serve based on 
the Administration. They execute that administration's 
policies. You do not remove them simply because there is a 
change in administration, right? And we are not on the 
political appointees, I'm on career employees.
    Mr. Hook. This is a personnel authorities question that I 
am not an expert in.
    Mr. Lieu. So you think it is OK to actually remove a career 
employee?
    Mr. Hook. No, I did not say that. You are asking me--I am 
not an HR--I do not work in HR.
    Mr. Lieu. I am asking really simple questions.
    Mr. Hook. No, but you are asking an H.R. question. I do not 
do human resources.
    Mr. Lieu. OK, all right. Is it appropriate to remove a 
career employee because of national origin?
    Mr. Hook. I have to assume that that would be 
inappropriate, but I am not----
    Mr. Lieu. All right, very good. We got you to answer one 
question. I am going to have this committee give you an email 
and it is an email that was sent to you on Tuesday, March 14, 
2017 from Juli Haller describing a career employee named Sahar 
Nowrouzzadeh. And in the email, she says Sahar Nowrouzzadeh is 
on detail to your office, basically SP, and that she is trying 
to get her suspended.
    And she notes as background she worked on the Iran deal, 
specifically works on Iran within SP, which is your office, was 
born in Iran. Are any of those factors relevant in removing a 
career employee from detail, sir?
    Mr. Hook. This is an email from Juli Haller.
    I do not--I did not write this email, so I am just not sure 
what your question----
    Mr. Lieu. Yes. But you did respond saying, ``This initial 
info is helpful.'' Is it helpful to know that a career employee 
worked on the Iran deal, works in your office, and was born in 
Iran?
    Mr. Hook. No, no. Because if you look at the--I am looking 
at this in real time now. It says, ``This official permanently 
belongs to NEA as a career conditional employee.'' I asked, 
``What does career conditional mean?''
    Look----
    Mr. Lieu. But you said this initial info is helpful. Is it 
helpful to know her national origin?
    Mr. Hook. Congressman, as you know there is an Inspector 
General report on this very subject that you are asking about. 
I am looking forward to the release of that report and it would 
be improper for me to comment on this matter until----
    Mr. Lieu. All right.
    Mr. Hook [continuing]. That review has concluded.
    Mr. Lieu. OK, thank you.
    So Saudi Arabia is viewed by this administration not only 
as a U.S. ally but also as a counterweight to Iran in the 
region; is that correct?
    Mr. Hook. Saudi Arabia as a counterweight?
    Mr. Lieu. They oppose Iran.
    Mr. Hook. Saudi Arabia is regularly attacked by an Iranian 
surrogate.
    Mr. Lieu. OK. The U.N. today reported that the crown prince 
of Saudi Arabia should be investigated for murdering Jamal 
Khashoggi. Do you agree with our own CIA's assessment that the 
crown prince ordered the murder of U.S. resident Jamal 
Khashoggi?
    Mr. Hook. On the subject of that Secretary Pompeo has made 
it very clear that we are determined to hold every single 
person who--materially responsible accountable. The Saudi 
prosecutor has taken important steps toward accountability for 
the tragic killing of Jamal Khashoggi, but more needs to be 
done.
    Mr. Lieu. Thank you. I look forward to you holding the 
crown prince accountable. I yield back.
    Mr. Deutch. Thank you, Mr. Lieu. Mr. Watkins, you are 
recognized.
    Mr. Watkins. Thanks, sir.
    Thanks for being here, Mr. Hook. Does the Administration 
believe--hold the long-held belief to ensure freedom of 
navigation throughout the Persian Gulf, Strait of Hormuz, and 
other waterways?
    Mr. Hook. Yes, it is an important national security and 
economic priority.
    Mr. Watkins. Last week, the President tweeted, ``It is too 
soon to even think about making a deal. They are not ready, 
neither are we.'' What do you believe it will take in order for 
Iran to begin negotiations, sir?
    Mr. Hook. From the time we left the deal we made it very 
clear that we want a diplomatic solution to the broad range of 
threats that Iran presents to international peace and security. 
We have made that repeatedly. The President has done it 
repeatedly that he is ready to sit down. Secretary Pompeo said 
he will sit down without preconditions.
    President Trump endorsed Prime Minister Abe making an 
historic visit to Iran to pursue a diplomatic outcome and to 
lead the talks. The supreme leader of Iran put out a few tweets 
that made it very clear that he will not even listen to the 
President, and then for good measure he attacked a Japanese-
owned tanker. Iran continues to reject American overtures for a 
diplomatic solution, and we have seen no relaxing of that.
    And we have made it also very clear that Iran can either 
start behaving like a normal country or it can watch its 
economy crumble. And we are committed to driving up the costs 
of Iran's violent foreign policy.
    Mr. Watkins. Final question, Mr. Hook. The regime in Tehran 
is one of the world's worst human rights abusers. How does that 
or does that and how does that weigh into the calculus of our 
dealings with Tehran?
    Mr. Hook. In September, I put out a report that was 
released during the U.N. General Assembly and I devoted an 
entire chapter to Iran's human rights violations. I will give 
you one example. There was one Canadian-Iranian who founded a, 
I think it was the Persian Wildlife Foundation. He was arrested 
and then died in prison.
    You have Iranians protest because they want clean air and 
they want clean water and they want to protect wildlife and the 
regime responds by killing them. You have women around Iran who 
are denied the basic dignity. And so, we stand very strongly 
with the Iranian people, especially Iranian women.
    Mr. Watkins. Yes, we do. Thank you, Mr. Hook.
    Mr. Chairman, I yield back.
    Mr. Deutch. I thank you, Mr. Watkins. I now recognize Mr. 
Malinowski.
    Mr. Malinowski. Thank you. Let me start by echoing the 
chairman's comments about our hostages, including Bob Levinson 
whose family are constituents of mine, and I just really hope 
that we prioritize this diplomatically and not subsume it in a 
sea of demands that are much less likely to be met in the near 
term. And now I have a few questions.
    Sir, the President in recent days has said that the Iranian 
attacks on the tankers in the Gulf were very minor. What did he 
mean by that?
    Mr. Hook. When we were looking at the sort of intelligence 
that we were seeing--and I do not know, Congressman, if you 
have seen it yet, but the intelligence that we were seeing 
suggested attacks, I think, on a very significant scale.
    Mr. Malinowski. OK.
    Mr. Hook. And that were also directed at American 
interests.
    Mr. Malinowski. All right. He also said that Iran is a much 
different country today than it was two and a half years ago 
when, quote, ``I came to office. We are not hearing 'Death to 
America' anymore,'' he said. He seemed, and emphasized that his 
main interest is dealing with nuclear issue. What does he mean 
by that?
    Mr. Hook. Iran is, by almost every metric, weaker today 
than when it was over 2 years ago when we came into office. We 
think that--that is just simply raw numbers and I discussed 
some of those in my opening statement. And so, it is weaker.
    Mr. Malinowski. OK. It is a little--I mean the implication 
of his statement was that they were a little less threatening, 
that the policy had been successful. And I am asking because I 
think there is a disconnect, if I may, between what we hear 
from different parts of the Administration. When I listen to 
the President, it seems on most days that what he is primarily 
interested in is improving on the nuclear deal, which was 
obviously flawed, perhaps extending the, or eliminating the 
sunset clause, et cetera.
    What I hear from you is very different. What I hear from 
you is that our policy is to bankrupt Iran until they meet this 
maximalist set of 12 demands, until they become a normal 
country as Secretary Pompeo and you just said, demands that 
include basically cutting off ties with all of their proxy 
forces in the region, the nuclear issue just one small part of 
it.
    So which is it? Are we going to--are we using these 
sanctions to improve the nuclear deal or are we using the 
sanctions to fundamentally change the nature of the Iranian 
regime?
    Mr. Hook. You have mentioned one quote. I think you have to 
look at the quotes in their totality. We have quotes, but we 
also have speeches. And the President has also made a couple of 
addresses to the U.N. General Assembly laying out in more 
detail some of these concerns that you talked about.
    Money is the sinews of war. And if we do not go after the 
money, Iran is able to fund its proxies which then have direct 
consequences for American interests in the Middle East. Our 
goal is not--you had said it. I never said that we are trying 
to bankrupt the regime. I said that we are trying to make their 
foreign policy prohibitively expensive. And that is the right 
policy. It would be, I think, diplomatic malpractice to somehow 
encourage Iran to have more money so that they can spend it on 
their proxies.
    Mr. Malinowski. No, I understand. You are reaffirming your 
point, which is the purpose of the sanctions is to change their 
entire foreign policy, it is not just to deal with the nuclear 
issue.
    Let me read you a quote from another speech from Secretary 
Pompeo who said of the people of Iran, the people of Iran will 
get to, quote, ``will get to make a choice about their 
leadership. If they make the decision quickly that would be 
wonderful. If they choose not to do so, we will stay hard at 
this until we achieve the outcomes
    I set forward''--the 12 demands.
    So, basically, we are saying to the Iranian people, you 
have to change the entire foreign policy of your country or we 
are going to continue these, what you refer to as crippling 
sanctions. That seems rather inconsistent with where the 
President is and somewhat hard to achieve.
    Mr. Hook. The President, if you look at what he has said 
over the last couple of years, he has taken a comprehensive 
approach to the entire range of threats that Iran presents. The 
nuclear threat is obviously the one that has the biggest 
consequence, OK, and so we prioritize that. That does not mean 
though that we are going to look the other way on the missile 
testing, the space launch vehicles, the missile proliferation, 
the regional aggression, the human rights abuses.
    And I think one of the traps that the international 
community fell into was that as soon as you said Iran is in 
compliance with the deal, it ended the conversation and it 
obscured all of the ways that Iran has used the Iran nuclear 
deal to destabilize the Middle East. It made them stronger. It 
gave them more money. It has a weak inspections regime. It is 
silent on ICBMs. And it expires.
    And so rather than wait for all of these things to come to 
pass in 10 years when Iran is stronger, we have pulled that 
forward. But I truly believe that everything we are seeing 
today is inevitable.
    Mr. Malinowski. So if we fix the deal, the sanctions remain 
in place, is what you are saying, until everything else is 
fixed.
    Mr. Hook. No. What I have said is that our sanctions have 
two purposes, and I said this in my opening statement, to deny 
the regime the revenue it needs to run an expansionist foreign 
policy and to bring them back to the negotiating table.
    Mr. Deutch. Thank you, Mr. Hook.
    The votes have been called. Mr. Hook needs to get to the 
Senate, which leaves just enough time for Mr. Cicilline to be 
recognized.
    Mr. Cicilline. Thank you. Thank you, Mr. Chairman.
    Mr. Hook, I am very concerned that the actions taken by the 
Administration over the last 18 months have isolated the United 
States and brought us closer to war. Since we abandoned the 
JCPOA, there has not been any perceivable improvements in our 
position vis-a-vis Iran; in fact, the situation seems to have 
escalated considerably and we are now isolated from our allies 
on this point. And I fear that there are people within the 
Administration who see war with Iran as not only inevitable, 
but desirable, a position I cannot fathom due to the 
destruction it would cause.
    I want to associate myself with my colleagues' remarks, 
particularly the chairman's, about the absence of an 
authorization to strike Iran under any existing AUMF or 
constitutional authorities. I am not asking you to pose an 
opinion. I think the text of the Constitution is quite clear.
    And with respect to the notion that al-Qaida is the basis, 
the testimony that Secretary Pompeo made and where he tried to 
make that argument, it should be noted that in fact al-Qaida 
and its affiliates are Sunni extremists who consider Shia like 
Iran's government to be heretics. In a 2018 analysis of 
declassified documents obtained during the 2001 raid on Osama 
bin Laden's compound found that al-Qaida views Iran as a 
hostile entity. So this notion of that being authorization is 
clearly nonexistent.
    But you said in your testimony that where you have made, 
our strategy is working. Based on what?
    Mr. Hook. I am happy to go over it again with you. I will 
give you one example. Under the Iran nuclear deal, Iran's 
military spending reached record highs. In this administration, 
the first year it was down 10 percent and then starting in 
March it is down 29 percent.
    Mr. Cicilline. But I guess maybe the question----
    Mr. Hook. That is really significant.
    Mr. Cicilline. The strategy is to achieve what objective? 
Maybe that is the question.
    Mr. Hook. Our strategy is to get to a new and better deal 
that we would submit to the Senate as a treaty.
    Mr. Cicilline. OK.
    Mr. Hook. Which is a mistake that the prior 
administration--we think that the last deal should have been 
submitted to the Senate and they went around the Congress and 
they found the votes in the U.N. Security Council.
    Mr. Cicilline. That is sort of rich on the sort of the 
moment that Iran is about to increase its capabilities to, in 
fact, develop a nuclear weapon as a result of us walking away 
from the agreement. But, you know, Secretary Pompeo in May 2018 
stipulated a list of 12 behavior changes by Iran that would 
meet U.S. conditions for normalization. And he said at that 
time--well, I said at the time it looked like more of a wish 
list than any actual set of policy proposals or a strategy to 
achieve them.
    But as of today, which of the 12 demands that were 
articulated by the Secretary have been successfully met in the 
intervening time period?
    Mr. Hook. I do not have the 12 in front of me.
    Mr. Cicilline. Well, have any of them been met? Let me make 
it easy for you.
    Mr. Hook. Well, their--the regional aggression, we have 
weakened their proxies. We have also denied revenues to the 
regime to fund its missile program and its nuclear program. The 
regime is weaker today than it was, so it doesn't have the 
money that it used to, to spend on the areas that we are 
seeking change in. That is the nuclear missiles and regional 
aggression. They do not.
    Mr. Cicilline. But has not your argument been all day and 
the Administration argument their behavior has gotten worse? 
Isn't that the whole point?
    Mr. Hook. No. Iran, still, even with very little revenue, 
has an asymmetric capability that terrorists have. The costs of 
the 9/11 operation were quite inexpensive. That is the 
advantage that terrorism has today, its asymmetric advantage. 
And so it is the case that the regime has tens of billions of 
dollars of less revenue today than when it did before our 
sanctions took effect. That does not mean that we have 
eliminated their asymmetric threats.
    Mr. Cicilline. And, Mr. Hook, do you believe, you know, one 
of the issues that Secretary Pompeo included in his Iran policy 
proposal related to human rights. And I am curious, do you 
believe that the President's embrace of authoritarian rulers 
such as North Korea's Kim Jong Un or Saudi Arabia's Mohammad 
bin Salman enhances or undercuts the human rights demands that 
Secretary Pompeo included in his proposal?
    Mr. Hook. I can speak to Iran. And in the case of Iran he 
has coupled economic pressure with an off ramp for diplomacy. 
The Iranians have rejected that off ramp.
    Mr. Cicilline. That is not my question. My question is, is 
the Administration, and the President's in particular, his 
embrace of authoritarian rulers with a gross disregard for 
human rights, does that make our demand for human rights 
concessions from the Iranians more likely, less likely, or no 
impact? It seems hard to reconcile the two. I am just 
wondering, as the person in charge of this effort----
    Mr. Hook. Yes.
    Mr. Cicilline [continuing]. Does that have some impact?
    Mr. Hook. I do not share the premise of your question when 
I look at the sort of pressure that we have put in place on 
authoritarian regimes. And the President, I think, and I can 
only speak to Iran, has made very clear that while we do have 
very strong economic measures in place, he has encouraged Iran 
to call so that we can begin talks, and our Secretary of State 
has said without preconditions. And we are also doing this 
while we are highlighting the human rights abuses of this 
regime.
    Mr. Cicilline. Thank you. My time is expired. Thank you, 
Mr. Chairman.
    Mr. Deutch. Thank you, Mr. Cicilline.
    Mr. Hook, thank you so much for appearing before our 
committee today. We appreciate it.
    Thanks to the members who have come. Members will have five 
legislative days to submit questions or materials, additional 
materials for the record. And, without objection, the 
subcommittee is adjourned.
    [Whereupon, at 1:42 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                         

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            


                                 <all>
</pre></body></html>
